                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE O F INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT M E M O R A N D U ~ ~

Case Number: A02020012
                                                                    11        Page 1of 1
                                                                                                    Il
     The complainant1 made allegations of fraud and a Conflict of Interest (COI) against
     the subject2 and COIs against his university.3 The potential criminal and civil
     violations of those allegations were addressed in a previous case and determined to
     be unsubstantiated.4 This case was opened to address the potential administrative
     violations of the COIs against the university. Two alleged COIs against the
     university are the university (1) allows the subject to use his university telephone
     number as his contact point for his dealings a s a partner in a company,5 and
     (2) failed to properly enforce its COI policy as it pertains to the subject's partial
     ownership of a company.

     The subject and his graduate student6 previously performed research on a n NSF
     award7 to the university that led to a patent held by the university. The subject
     and his student formed a company to commercialize the results of their research
     and obtained a license from the university to practice the invention. Three years
     after the aforementioned NSF award to the university, the company proposed, and
     received, NSF SBIRg funding.9 The subject agreed to be a part time technical
     consultant for research conducted via the company's NSF grant, but the subject
     does not receive any funding from the company's NSF grant.

     Regarding allegation (I), the subject's use of his university telephone does not raise
     any significant COI issues involving NSF. Regarding allegation (2), the subject
     disclosed his relationship with the company to NSF and the university, so there is
     no COI violation for the university to enforce. There is no evidence to support a n
     allegation against the university. Accordingly, this case is closed and no further
     action will be taken.



         1 (footnote redacted).
         2 (footnote redacted).
         3 UCLA.
         4 101090018.
         5 (footnote redacted).
         6 (footnote redacted).
         7 (footnote redacted).
         8 Small Business Innovation Research.
         9 (footnote redacted).



                       Agent                     Attorney     Supervisor              AIGI

 Sign 1 date

                                                                                     OIG-02-2            0
                                                                                                B
                                                                                                    /
